                   Fiscal Year 2005 Statutory Audit of
                Compliance With Notifying Taxpayers of
               Their Rights When Requested to Extend the
                           Assessment Statute

                                     July 2005

                       Reference Number: 2005-40-112




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                            DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                      July 21, 2005


      MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                     ENFORCEMENT


      FROM:                         Pamela J. Gardiner
                                    Deputy Inspector General for Audit

      SUBJECT:                     Final Audit Report - Fiscal Year 2005 Statutory Audit of
                                   Compliance With Notifying Taxpayers of Their Rights When
                                   Requested to Extend the Assessment Statute
                                   (Audit # 200440053)


      This report presents the results of our review to determine whether the Internal
      Revenue Service (IRS) was complying with Internal Revenue Code (I.R.C.) Section
      (§) 6501(c)(4)(B) (2000), which requires the IRS to provide notice to taxpayers of their
      rights to decline to extend the assessment statute of limitations or to request that any
      extension be limited to a specific period of time or to specific issues.
      The Treasury Inspector General for Tax Administration (TIGTA) is required to provide
      information annually regarding the IRS’ compliance with I.R.C. § 6501(c)(4)(B).1 The
      IRS is required to advise taxpayers of their rights when requesting an extension of the
      statute of limitations on assessment of additional tax and penalties. In passing this law,
      the Congress expressed concern that taxpayers were not being adequately advised of
      their rights to refuse to extend the statute of limitations or to request that a statute
      extension be limited to a specific period of time or to specific issues.
      There was not always documentation in the related case files that taxpayers were
      advised of their rights regarding assessment statute extensions. The consent forms2
      used during our period of review did not provide an explanation of the taxpayers’ rights
      to limit or refuse to extend the assessment statute of limitations. In our sample of
      215 tax returns, 38 percent of the related case files reviewed did not contain any

      1
       I.R.C. § 7803(d)(1)(C) (2000).
      2
       The IRS uses several different types of consents, depending on the type of tax involved. For example, Consent to
      Extend the Time to Assess Tax (Form 872) is used for income taxes and Consent to Extend the Time to Assess
      Employment Taxes (Form SS-10) is used for employment taxes.
                                                          2

documentation to support that the taxpayers and/or their representatives had been
advised of the taxpayers’ rights regarding assessment statute extensions.
Although the IRS had revised its internal procedures over the last few years to help
enhance controls, our reviews continued to identify instances in which there is no
documentation that taxpayers were advised of their rights. In response to our
Fiscal Year 2004 report,3 the IRS revised the various consent forms and incorporated
them into the related Internal Revenue Manual4 sections. The revised consent forms
include a prominent statement informing taxpayers of their rights regarding assessment
statute extensions, as provided for in I.R.C. § 6501(c)(4)(B), and provide information on
Extending the Tax Assessment Period (Publication 1035). In addition, the consent
forms include a statement for the taxpayers’ representatives to sign, confirming that
they have been notified of the taxpayers’ rights regarding assessment statute
extensions and that the taxpayers have been made aware of the same advice of rights.
Integrating the revised consent forms into the assessment statute extension process
should help the IRS eliminate questions concerning whether the taxpayers and/or their
representatives are being properly notified of the taxpayers’ rights regarding
assessment statute extensions. We do not believe any further recommendations are
needed at this time.
While we made no recommendations in this report, the review will provide the following
measurable benefits on tax administration relative to recommendations made in prior
TIGTA reviews: protection of taxpayer rights. This review showed taxpayer rights were
potentially affected in 82 tax returns sampled.5 Related case files were not documented
to show that taxpayers’ rights were protected for 30 single individual, business, or
exempt organization taxpayer accounts;6 28 joint filer taxpayer accounts;7 and
24 taxpayer accounts for which the taxpayers made a declaration of representation.
Management’s Response: IRS management was pleased to note we agreed the
revisions made to various consent forms should eliminate any questions concerning
notification rights. Management’s complete response to the draft report is included as
Appendix VI.



3
  Fiscal Year 2004 Statutory Audit of Compliance With Notifying Taxpayers of Their Rights When Requested to
Extend the Assessment Statute (Reference Number 2004-40-108, dated June 2004).
4
  The IRM contains policy, direction, and delegations of authority that are necessary to carry out IRS responsibilities
to administer tax law and other legal provisions.
5
  This number is a unique count of taxpayer accounts. It is made up of single individuals, businesses, exempt
organizations, taxpayers who filed a joint tax return, and taxpayers not included in the previous categories that had
made a declaration of representation.
6
  These 30 cases are comprised of 21 cases with no evidence that the taxpayers had ever been advised of their rights
and 9 cases with evidence that the taxpayers had been advised of their rights at some point during the examinations
but not for the last extensions requested.
7
  These 28 cases are comprised of 23 cases with no evidence that the taxpayers had ever been advised of their rights
and 5 cases with evidence that the taxpayers had been advised of their rights at some point during the examinations
but not for the last extensions requested.
                                           3

Copies of this report are also being sent to the IRS managers affected by the
report results. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment
Income Programs), at (202) 927-0597.
          Fiscal Year 2005 Statutory Audit of Compliance With Notifying Taxpayers
             of Their Rights When Requested to Extend the Assessment Statute




                                             Table of Contents


Background ............................................................................................... Page 1
Case Files Did Not Always Contain Documentation That
Taxpayers and/or Their Representatives Were Advised of the
Taxpayers’ Rights Regarding Assessment Statute Extensions................. Page 4
Appendix I – Detailed Objective, Scope, and Methodology....................... Page 9
Appendix II – Major Contributors to This Report ....................................... Page 11
Appendix III – Report Distribution List ....................................................... Page 12
Appendix IV – Outcome Measures............................................................ Page 13
Appendix V – Case Review Results by Division........................................ Page 15
Appendix VI – Management’s Response to the Draft Report .................... Page 16
        Fiscal Year 2005 Statutory Audit of Compliance With Notifying Taxpayers
           of Their Rights When Requested to Extend the Assessment Statute

                                 The Internal Revenue Service (IRS) is required by Internal
Background
                                 Revenue Code (I.R.C.) Section (§) 6501(c)(4)(B) (2000) to
                                 advise taxpayers of their rights when requesting an
                                 extension of the statute of limitations on assessment of
                                 additional tax and penalties. In the event of multiple
                                 extension requests, this I.R.C. section also requires the IRS
                                 to notify the taxpayer of his or her rights on each occasion
                                 when the taxpayer is requested to consent to an extension.
                                 In passing this law, the Congress expressed concern that
                                 taxpayers were not being adequately advised of their rights
                                 to refuse to extend the statute of limitations or to request
                                 that a statute extension be limited to a specific period of
                                 time or to specific issues.
                                 Federal regulations require that any notice or other written
                                 communication (or copy) required or permitted to be given
                                 to a taxpayer in any matter before the IRS must also be
                                 given to the taxpayer and to the taxpayer’s representative.1
                                 However, the taxpayer can use the Power of Attorney and
                                 Declaration of Representative (Form 2848) to restrict the
                                 notices or information the representative is authorized to
                                 receive. In addition, the IRS Restructuring and Reform Act
                                 of 1998 (RRA 98)2 § 3201 requires the IRS to send any
                                 notice relating to a jointly filed tax return separately to each
                                 individual filing the joint return, whenever practicable.
                                 If the IRS examines a tax return and determines there is an
                                 additional tax liability, it generally must be assessed within
                                 3 years from the date the return was due or from the date on
                                 which the return was actually filed, whichever is later. This
                                 3-year assessment statute of limitations normally cannot be
                                 extended without the taxpayer’s written agreement.3
                                 To extend the assessment statute, the IRS asks the taxpayer
                                 to sign a statute extension agreement form (i.e., a consent




                                 1
                                   26 Code of Federal Regulations § 601.506 (2004).
                                 2
                                   Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered
                                 sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C.,
                                 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                 3
                                   There are some exceptions to the 3-year statute of limitations. For
                                 example, I.R.C. § 6501(c)(1) (2000) extends the assessment statute
                                 indefinitely when false or fraudulent tax returns are filed.
                                                                                                 Page 1
Fiscal Year 2005 Statutory Audit of Compliance With Notifying Taxpayers
   of Their Rights When Requested to Extend the Assessment Statute

                         form).4 There are two basic kinds of consents: the
                         fixed-date consent and the open-ended consent. The
                         fixed-date consent sets a specific expiration date for the
                         extension of the statute, while the open-ended consent
                         extends the statute for an indefinite length of time. In an
                         open-ended consent, the extension period generally remains
                         open until 90 days after either the taxpayer or the IRS sends
                         the prescribed notice ending the agreement. The statute is
                         usually extended for a period that both the IRS and the
                         taxpayer agree is reasonable to complete the examination.
                         The consent can also be negotiated to apply only to certain
                         examination issues.
                         A taxpayer might agree to extend the assessment statute of
                         limitations for the following reasons:
                         •   The taxpayer may want to pursue additional examination
                             issues that are in the taxpayer’s favor in offsetting a
                             proposed tax or that might allow for a tax refund.
                         •   If the remaining time before the statute expires is too
                             short, the IRS may have to prematurely stop the
                             examination process and issue a notice of deficiency that
                             limits the time for the normal appeals process before the
                             taxpayer must file a petition to the United States Tax
                             Court.
                         There are also certain circumstances in which a taxpayer
                         may decide to limit or refuse to extend the assessment
                         statute of limitations:
                         •   The taxpayer may not want to provide the IRS more
                             time to consider additional examination issues.
                         •   The taxpayer may not want to allow the IRS the
                             opportunity to further develop examination issues
                             already under consideration after the normal statute
                             period has expired.
                         The Treasury Inspector General for Tax Administration is
                         required to provide information annually regarding the IRS’



                         4
                          IRS employees that most often request assessment statute extensions
                         are examiners in the Examination function of the operating divisions and
                         appeals officers in the Office of Appeals.
                                                                                         Page 2
Fiscal Year 2005 Statutory Audit of Compliance With Notifying Taxpayers
   of Their Rights When Requested to Extend the Assessment Statute

                         compliance with I.R.C. § 6501(c)(4)(B).5 This report
                         presents the results of our sixth annual review of the IRS’
                         compliance with the statute extension provisions of the law.
                         In the prior reviews, we evaluated assessment statute
                         extensions processed from January 1 to March 24, 2000;
                         April 1 to September 30, 2000; October 1, 2000, to
                         September 30, 2001; September 30, 2001, to October 5,
                         2002; and October 6, 2002, to September 27, 2003.
                         Although the IRS had revised its internal procedures over
                         the last few years to help enhance controls, our reviews
                         continued to identify instances in which there is no
                         documentation that taxpayers were advised of their rights.
                         Therefore, in our Fiscal Year (FY) 2004 report,6 we
                         recommended the Deputy Commissioner for Services and
                         Enforcement revise the various consent forms to include a
                         statement that the taxpayers have been informed of their
                         rights regarding assessment statute extensions and have
                         been provided a copy of Extending the Tax Assessment
                         Period (Publication 1035).
                         For the current audit, we reviewed assessment statute
                         extensions processed from September 28, 2003, to
                         June 30, 2004. This review was performed at the Large and
                         Mid-Size Business Division Headquarters, the Office of
                         Appeals Headquarters, and the Tax Exempt and
                         Government Entities Division Headquarters in
                         Washington, D.C., and the Small Business/Self-Employed
                         Division in New Carrollton, Maryland, during the period
                         October 2004 through March 2005.
                         The audit was conducted in accordance with Government
                         Auditing Standards. Detailed information on our audit
                         objective, scope, and methodology is presented in
                         Appendix I. Major contributors to the report are listed in
                         Appendix II.




                         5
                          I.R.C. § 7803(d)(1)(C) (2000).
                         6
                          Fiscal Year 2004 Statutory Audit of Compliance With Notifying
                         Taxpayers of Their Rights When Requested to Extend the Assessment
                         Statute (Reference Number 2004-40-108, dated June 2004).
                                                                                      Page 3
         Fiscal Year 2005 Statutory Audit of Compliance With Notifying Taxpayers
            of Their Rights When Requested to Extend the Assessment Statute

                                  Our review showed taxpayer rights were potentially affected
Case Files Did Not Always
                                  in 827 (38 percent) of 215 tax returns sampled. The consent
Contain Documentation That
                                  forms8 used during our period of review did not provide an
Taxpayers and/or Their
                                  explanation of the taxpayers’ rights to limit or refuse to
Representatives Were Advised
                                  extend the assessment statute of limitations. Therefore, we
of the Taxpayers’ Rights
                                  considered that IRS employees advised taxpayers of their
Regarding Assessment Statute
                                  rights if any of the following documentation was found in
Extensions
                                  the related case files:
                                  •   A copy of Request to Extend Statute (Letter 907
                                      (L-907)), Letter Transmitting Consent Extending Period
                                      of Limitation (Letter 967 (L-967)), or comparable cover
                                      letter updated to include an explanation of taxpayer
                                      rights addressed to the taxpayer.
                                  •   A record that Publication 1035 was provided to the
                                      taxpayer, as documented in the examination activity
                                      record or as shown as an enclosure on a cover letter.
                                      This Publication provides a detailed explanation of
                                      taxpayer rights.
                                  •   A notation in the examination activity record indicating
                                      the taxpayer was given the required notification of
                                      rights.
                                  In response to our FY 2004 report, the IRS began revising
                                  the various consent forms and incorporating them into the
                                  related Internal Revenue Manual (IRM)9 sections. The
                                  revised consent forms include a prominent statement
                                  informing taxpayers of their rights regarding assessment
                                  statute extensions, as provided for in I.R.C. § 6501(c)(4)(B),
                                  and provide information on Publication 1035. In addition,
                                  the consent forms include a statement for the taxpayers’


                                  7
                                    This number is a unique count of taxpayer accounts. It is made up of
                                  single individuals, businesses, exempt organizations, taxpayers who
                                  filed a joint tax return, and taxpayers not included in the previous
                                  categories that had made a declaration of representation.
                                  8
                                    The IRS uses several different types of consents, depending on the
                                  type of tax involved. For example, Consent to Extend the Time to
                                  Assess Tax (Form 872) is used for income taxes and Consent to Extend
                                  the Time to Assess Employment Taxes (Form SS-10) is used for
                                  employment taxes.
                                  9
                                    The IRM contains policy, direction, and delegations of authority that
                                  are necessary to carry out IRS responsibilities to administer tax law and
                                  other legal provisions.
                                                                                                    Page 4
Fiscal Year 2005 Statutory Audit of Compliance With Notifying Taxpayers
   of Their Rights When Requested to Extend the Assessment Statute

                         representatives to sign, confirming that they have been
                         notified of the taxpayers’ rights regarding assessment statute
                         extensions and that the taxpayers have been made aware of
                         the same advice of rights.
                         This year’s review continued to confirm IRS employees do
                         not always document that the taxpayers or their
                         representatives were properly advised of the taxpayers’
                         rights regarding assessment statute extensions. As of
                         February 2005, the IRS had completed its revisions of the
                         assessment statute extension consent forms. Integrating the
                         revised consent forms into the assessment statute extension
                         process should help the IRS eliminate questions concerning
                         whether the taxpayers are being properly notified of their
                         rights regarding assessment statute extensions. As a result,
                         we do not believe any further recommendations are needed
                         at this time.
                         There was not always documentation that single
                         individuals, businesses, and exempt organizations were
                         advised of their rights regarding assessment statute
                         extensions
                         For 30 (20 percent) of 148 tax returns filed by single
                         individuals, businesses, or exempt organizations in our
                         sample,10 the related case files did not contain any
                         documentation to support that taxpayers had been properly
                         advised of their rights regarding the IRS’ assessment statute
                         extension requests. As a result, we could not determine if
                         the IRS protected the rights of these taxpayers. This
                         occurred because employees were not following IRS
                         internal guidelines.
                         The IRM and other internal procedures require IRS
                         employees to provide the taxpayer with an L-907 or L-967,
                         with Publication 1035 as an enclosure, and document on an
                         activity record whether the taxpayer was notified of his or
                         her rights every time the IRS requested an assessment
                         statute extension. There could be a violation of taxpayer
                         rights if the taxpayer is not notified of his or her rights to

                         10
                           These 30 cases are comprised of 21 cases with no evidence that the
                         taxpayers had ever been advised of their rights and 9 cases with
                         evidence that the taxpayers had been advised of their rights at some
                         point during the examinations but not for the last extensions requested.
                                                                                          Page 5
Fiscal Year 2005 Statutory Audit of Compliance With Notifying Taxpayers
   of Their Rights When Requested to Extend the Assessment Statute

                         refuse to extend the period of limitations or to request that
                         any extension be limited to specific issues or to a specific
                         period of time.
                         There was not always documentation that each taxpayer
                         listed on a jointly filed tax return was advised of his or
                         her rights regarding assessment statute extensions
                         For 28 (42 percent) of 67 joint tax returns in our sample,11
                         the related case files did not contain any documentation to
                         support that each taxpayer listed on the tax returns was
                         separately informed of his or her rights (i.e., dual
                         notification) every time the IRS requested an assessment
                         statute extension. This occurred because employees were
                         not following IRS internal guidelines.
                         The guidelines covering requests for taxpayers to extend the
                         assessment statute require notices relating to joint tax
                         returns be sent to each individual filing the joint return,
                         whenever practicable. Specifically, the IRM requires
                         providing each individual filing a joint tax return with an
                         L-907 or L-967.
                         In addition, RRA 98 § 3201 requires the IRS to send any
                         notice relating to a jointly filed tax return separately to each
                         individual filing the joint tax return. The Congress intended
                         that separate notices would increase the likelihood that
                         separated or divorced spouses each received such notices, as
                         well as increase the likelihood the IRS will be made aware
                         of address changes that apply to one, but not both, spouses.
                         There could be a violation of taxpayer rights if both
                         taxpayers are not notified of their rights to refuse to extend
                         the period of limitations or to request that any extension be
                         limited to specific issues or to a specific period of time.




                         11
                           These 28 cases are comprised of 23 cases with no evidence that the
                         taxpayers had ever been advised of their rights and 5 cases with
                         evidence that the taxpayers had been advised of their rights at some
                         point during the examinations but not for the last extensions requested.
                                                                                          Page 6
Fiscal Year 2005 Statutory Audit of Compliance With Notifying Taxpayers
   of Their Rights When Requested to Extend the Assessment Statute

                         There was not always documentation that both
                         taxpayers and their representatives were advised of the
                         taxpayers’ rights regarding assessment statute
                         extensions
                         In our sample of 215 tax returns, 138 of the related case files
                         contained an authorization for a third party to represent the
                         taxpayers in front of the IRS. In 75 of the related case files,
                         enough documentation was found to support that both the
                         taxpayers and their representatives had been advised of the
                         taxpayers’ rights regarding assessment statute extensions.
                         However, documentation in the remaining 63 (46 percent)
                         of the 138 related case files did not support that both the
                         taxpayers and their representatives were given the same
                         advice of rights. For example, the documentation in:
                         •    Twenty-four of the related case files supported that the
                              IRS had advised the taxpayers of their rights regarding
                              assessment statute extensions but did not mention that
                              their representatives were given the same advice of
                              rights.
                         •    Twenty-five of the related case files supported that the
                              IRS had advised the taxpayers’ representatives of the
                              taxpayers’ rights regarding assessment statute extensions
                              but did not mention that the taxpayers (including both
                              taxpayers on a jointly filed return) were given the same
                              advice of rights.12
                         •    Fourteen of the related case files did not contain any
                              support that the IRS had advised either the taxpayers
                              (including both taxpayers on a jointly filed return) or
                              their representatives of the taxpayers’ rights regarding
                              assessment statute extensions.13
                         This occurred because employees were not following IRS
                         internal guidelines. Internal IRS procedures and current

                         12
                            These 25 case files are included in the counts from the previous
                         sections where there was not enough documentation to determine if the
                         IRS properly advised taxpayers of their rights regarding assessment
                         statute extensions.
                         13
                            These 14 case files are included in the counts from the previous
                         sections where there was not enough documentation to determine if the
                         IRS properly advised taxpayers of their rights regarding assessment
                         statute extensions.
                                                                                       Page 7
Fiscal Year 2005 Statutory Audit of Compliance With Notifying Taxpayers
   of Their Rights When Requested to Extend the Assessment Statute

                         Federal Government regulations require that any notice or
                         other written communication (or copy) required or permitted
                         to be given to a taxpayer in any matter before the IRS must
                         also be given, unless restricted by the taxpayer, to the
                         taxpayer’s representative.
                         Taxpayer rights could be affected if the IRS does not follow
                         the Federal Government regulations and notify both the
                         taxpayers and their representatives of the taxpayers’ rights
                         to refuse to extend the period of limitations or to request that
                         any extension be limited to specific issues or to a specific
                         period of time.




                                                                                  Page 8
           Fiscal Year 2005 Statutory Audit of Compliance With Notifying Taxpayers
              of Their Rights When Requested to Extend the Assessment Statute

                                                                                                       Appendix I


                           Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue Service
(IRS) was complying with Internal Revenue Code Section 6501(c)(4)(B) (2000), which requires
the IRS to provide notice to taxpayers of their rights to decline to extend the assessment statute
of limitations or to request that any extension be limited to a specific period of time or to specific
issues. To accomplish our objective, we:
I.       Determined whether taxpayers were being advised of their rights related to assessment
         statute extension requests.
         A. Reviewed the Examination function Internal Revenue Manual (IRM),1 IRS
            memoranda and regulations, and the Office of Appeals (Appeals) IRM and other
            Appeals guidelines to determine the policies and procedures for processing requests
            to extend the assessment statute of limitations.
         B. Reviewed a sample of Business Master File (BMF)2 and Individual Master File
            (IMF)3 tax returns with taxpayer consents to extend assessment statutes processed
            from September 28, 2003, to June 30, 2004.
             1. Obtained BMF and IMF extracts to identify a population of tax returns having
                extensions of the assessment statute of limitations. The identified tax return
                populations were 4,647 and 5,685, respectively. We selected those extensions
                processed from September 28, 2003, to June 30, 2004.
             2. Selected for review a statistical sample of 610 tax returns from the category of
                cases likely to have statute extensions by taxpayer consent from the Examination
                function and Appeals processes. We reviewed the 610 tax returns and related
                case files, eliminating 395 tax returns that did not meet our criteria or because we
                did not receive all requested tax returns and related case files. Therefore, only
                215 reviewed tax returns and related case files met the audit criteria. This was not
                sufficient for a statistical sample. Within this random sample of 215 tax returns,
                there were 148 single individual, business, and exempt organization tax returns
                and 67 joint tax returns. In addition, out of the 215 single individual, business,
                exempt organization, and joint tax returns, there were 138 tax returns for which
                the taxpayers had made a declaration of representation.


1
  The IRM contains policy, direction, and delegations of authority that are necessary to carry out IRS responsibilities
to administer tax law and other legal provisions.
2
  The IRS database that consists of Federal tax-related transactions and accounts for businesses. These include
employment taxes, income taxes on businesses, and excise taxes.
3
  The IRS database that maintains transactions or records of individual tax accounts.
                                                                                                              Page 9
        Fiscal Year 2005 Statutory Audit of Compliance With Notifying Taxpayers
           of Their Rights When Requested to Extend the Assessment Statute

          3. Identified which business unit or function requested the extension and discussed
             any questionable extensions identified with IRS management for concurrence or
             an explanation of why the IRS believed proper procedures were followed.
          4. Validated the BMF and IMF data on a random sample of 50 of the 10,332 records
             identified in Step I.B.1. to determine the reliability of the data.
II.    Reviewed the 148 selected tax returns and related case files for documentation verifying
       that the single individuals, businesses, or exempt organizations were advised of their
       rights related to assessment statute extensions.
III.   Reviewed the 67 selected joint tax returns and related case files for documentation
       verifying that each taxpayer listed on a jointly filed return was separately advised of his
       or her rights related to assessment statute extensions.
IV.    Reviewed the 138 selected tax returns and related case files for documentation verifying
       that both the taxpayers and their representatives were notified of the taxpayers’ rights
       related to assessment statute extensions.
V.     Determined the status of the IRS corrective actions proposed to address the
       recommendations presented in prior Treasury Inspector General for Tax Administration
       audit reports.




                                                                                            Page 10
         Fiscal Year 2005 Statutory Audit of Compliance With Notifying Taxpayers
            of Their Rights When Requested to Extend the Assessment Statute

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Mary V. Baker, Director
Bryce Kisler, Audit Manager
David Hartman, Lead Auditor
Sharon Summers, Senior Auditor
Julia Tai, Senior Auditor
James Traynor, Senior Auditor
Jean Kao, Auditor
Lynn Ross, Auditor




                                                                                         Page 11
        Fiscal Year 2005 Statutory Audit of Compliance With Notifying Taxpayers
           of Their Rights When Requested to Extend the Assessment Statute

                                                                             Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Chief, Appeals AP
Deputy Commissioner, Large and Mid-Size Business Division SE:LM
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Communications, Government Liaison, and Disclosure, Small Business/Self-Employed
   Division SE:S:CGL&D
Director, Communications and Liaison, Large and Mid-Size Business Division SE:LM:CL
Director, Communications and Liaison, Tax Exempt and Government Entities Division
   SE:T:CL
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Exempt Organizations, Tax Exempt and Government Entities Division SE:T:EO
Director, Field Specialists, Large and Mid-Size Business Division SE:LM:FS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Commissioner, Large and Mid-Size Business Division SE:LM:CL
       Commissioner, Tax Exempt and Government Entities Division SE:T:CL
       Chief, Appeals AP
       Acting Chief, Customer Liaison, Small Business/Self-Employed Division SE:S:COM




                                                                                   Page 12
           Fiscal Year 2005 Statutory Audit of Compliance With Notifying Taxpayers
              of Their Rights When Requested to Extend the Assessment Statute

                                                                                                    Appendix IV


                                             Outcome Measures

This appendix presents detailed information on the measurable impact that the review results will
have on tax administration. While no recommendations were made in this report, the Treasury
Inspector General for Tax Administration has made prior recommendations that continue to
provide benefits. These benefits will be incorporated into our Semiannual Report to the
Congress.
Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Potential; 301 single individual, business, or exempt
    organization taxpayer accounts affected (see page 4).
•   Taxpayer Rights and Entitlements – Potential; 282 joint filer taxpayer accounts affected
    (see page 4).
•   Taxpayer Rights and Entitlements – Potential; 24 taxpayer accounts affected for which the
    taxpayers declared a representative (see page 4).
Methodology Used to Measure the Reported Benefit:
We reviewed a random sample of 215 tax returns with consents to extend the assessment statute
of limitations period. The returns were identified from the Fiscal Year 2004 Business Master
File (BMF)3 and Individual Master File (IMF)4 databases. The review showed taxpayer rights
were potentially affected in a total of 825 (38 percent) of 215 tax returns sampled.
Related case files were not documented in 30 of 148 single individual, business, and exempt
organization taxpayer accounts to show the taxpayers were notified of their rights to refuse or to
restrict the scope of the assessment statute extensions. There was no documentation in the
related case files that each taxpayer listed on a jointly filed return was separately informed of his
or her rights in 28 of 67 joint filer taxpayer accounts.


1
  These 30 cases are comprised of 21 cases with no evidence that the taxpayers had ever been advised of their rights
and 9 cases with evidence that the taxpayers had been advised of their rights at some point during the examinations
but not for the last extensions requested.
2
  These 28 cases are comprised of 23 cases with no evidence that the taxpayers had ever been advised of their rights
and 5 cases with evidence that the taxpayers had been advised of their rights at some point during the examinations
but not for the last extensions requested.
3
  The BMF is the IRS database that consists of Federal tax-related transactions and accounts for businesses. These
include employment taxes, income taxes on businesses, and excise taxes.
4
  The IMF is the IRS database that maintains transactions or records of individual tax accounts.
5
  This number is a unique count of taxpayer accounts. It is made up of single individuals, businesses, exempt
organizations, taxpayers who filed a joint tax return, and taxpayers not included in the previous categories that had
made a declaration of representation.
                                                                                                             Page 13
         Fiscal Year 2005 Statutory Audit of Compliance With Notifying Taxpayers
            of Their Rights When Requested to Extend the Assessment Statute

In addition, in our sample of 215 tax returns, 138 of the related case files contained an
authorization for a third party to represent the taxpayers in front of the IRS. In 24 of these
138 accounts, the documentation in the related case files supported that the IRS had advised the
taxpayers of their rights regarding assessment statute extensions but did not mention that their
representatives were given the same advice of rights.




                                                                                          Page 14
           Fiscal Year 2005 Statutory Audit of Compliance With Notifying Taxpayers
              of Their Rights When Requested to Extend the Assessment Statute

                                                                                                    Appendix V


                                  Case Review Results by Division1

                                                     Appeals       LMSB2       SB/SE3       TE/GE4       Totals5

Compliance With Requirement to
Notify Taxpayers of Their Rights
Number of Cases in Which There Was No
Documentation That Single Individuals,
                                                         14            9           5           2           306
Businesses, or Exempt Organizations Were
Advised of Their Rights (Applicable Cases: 148)
Number of Cases in Which There Was No
Documentation That Separate Notices Were Sent
                                                         10            1          17           0           287
to Both Taxpayers Listed on a Joint Return
(Applicable Cases: 67)


Compliance With Internal Guidelines
or Regulations
Number of Cases in Which There Was No
Documentation That Notices Were Given to Both
                                                         23           13          23           4           638
Taxpayers and Their Representatives
(Applicable Cases: 138)




1
  All cases do not have the same requirements. For example, all cases have a documentation requirement; however,
not all cases involve taxpayer representatives or taxpayers that file joint tax returns.
2
  Large and Mid-Size Business Division.
3
  Small Business/Self-Employed Division.
4
  Tax Exempt and Government Entities Division.
5
  No cases from the Wage and Investment Division occurred in our sample.
6
  These 30 cases are comprised of 21 cases with no evidence that the taxpayers had ever been advised of their rights
and 9 cases with evidence that the taxpayers had been advised of their rights at some point during the examinations
but not for the last extensions requested.
7
  These 28 cases are comprised of 23 cases with no evidence that the taxpayers had ever been advised of their rights
and 5 cases with evidence that the taxpayers had been advised of their rights at some point during the examinations
but not for the last extensions requested.
8
  This number includes 39 cases that were also included in the counts from the previous sections where there was
not enough documentation to determine if the Internal Revenue Service properly advised taxpayers of their rights
regarding assessment statute extensions.
                                                                                                            Page 15
Fiscal Year 2005 Statutory Audit of Compliance With Notifying Taxpayers
   of Their Rights When Requested to Extend the Assessment Statute

                                                                 Appendix VI


           Management’s Response to the Draft Report




                                                                          Page 16
